HHS/OIG-Audit--"Training Costs Claimed By Kansas Under the Title IV-E Foster Care Program, (A-07-97-01028)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Training Costs Claimed By Kansas Under the Title IV-E Foster Care Program,"
(A-07-97-01028)
August 28, 1997
Complete Text of Report is available in PDF format
(3.68 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the State charged the federally supported
title IV-E Foster Care program for training costs, which should have been allocated
to the State Foster Care program and/or eliminated because the training activities
were unallowable. As a result, the title IV-E Foster Care program was overcharged
about $6.8 million (Federal share $5.1 million) during the audit period. In
addition, we found that the State did not have procedures to ensure that training
contractors met the 25 percent cost sharing requirement. We recommended that
the State: (1) refund $5.1 million; and (2) establish procedures for allocating
future training costs to all benefitting programs. Regional ACF officials agreed
with our findings and recommendations.